<html>
<title> - [H.A.S.C. No. 115-44] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FIFTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 115-44]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

              MILITARY PERSONNEL POSTURE: FISCAL YEAR 2018

                               __________

                              HEARING HELD
                              MAY 17, 2017

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                               _________ 
   
                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-837                       WASHINGTON : 2018      

                                     
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
               Dave Giachetti, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     1

                               WITNESSES

Brilakis, LtGen Mark A., USMC, Deputy Commandant for Manpower and 
  Reserve Affairs, United States Marine Corps....................     4
Burke, VADM Robert P., USN, Chief of Naval Personnel, United 
  States Navy....................................................     3
Grosso, Lt Gen Gina M., USAF, Deputy Chief of Staff for Manpower, 
  Personnel and Services, United States Air Force................     5
McConville, LTG James C., USA, Deputy Chief of Staff, G-1, United 
  States Army....................................................     2

                                APPENDIX

Prepared Statements:

    Brilakis, LtGen Mark A.......................................    60
    Burke, VADM Robert P.........................................    47
    Coffman, Hon. Mike...........................................    33
    Grosso, Lt Gen Gina M........................................    78
    McConville, LTG James C......................................    34

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Coffman..................................................    97
    Ms. Speier...................................................    98

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
              MILITARY PERSONNEL POSTURE: FISCAL YEAR 2018

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Wednesday, May 17, 2017.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. Please be seated. I want to welcome everyone 
to the Military Personnel Subcommittee's hearing on the state 
of the military service personnel systems as we enter the 
fiscal year 2018 budget season.
    Our panel of the service personnel chiefs is here to 
address each of their services' personnel postures, including 
personnel policies for recruiting and retention, family 
programs, and/or address budget and legislative requests for 
fiscal year 2018 to the extent that they can.
    Today's focus is on the personnel policies the services 
currently have to sustain and create efficiencies, which 
includes promotion policy, bonus and incentive policies, and 
end-strength changes that still need to be examined in light of 
proposed increases, and the ensuing challenges.
    I am especially interested in your plans for retention of 
the right service members that are central to your mission, in 
what may develop into difficult recruiting and retention--into 
a difficult recruiting and retention environment in the coming 
years. We would like to understand the policies and programs 
that will be used to maintain and increase personnel end 
strengths.
    Before I introduce our panel, let me offer Congresswoman 
Speier an opportunity to make any opening remarks.
    Ms. Speier.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 33.]

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Mr. Chairman, thank you. And thank you to all 
of our witnesses who are here today. This is a critical time to 
hear from you. The services have spent the past several years 
implementing end-strength reductions. Before we commit to 
growing the force again, we need to take a very good look 
beyond just the numbers, because for each and every new service 
member that commits to military service, we are signing the 
government up for a lifelong commitment to them as well, a 
commitment that will come with a significant cost.
    I am interested in hearing how the services are going to 
compete in an increasingly competitive labor market and retain 
the skilled individuals they invest in, while still operating 
in a constrained budget environment. In the past, recruiting 
challenges have been addressed by lowering standards, a tactic 
I do not support and presume you do not as well.
    But simply adding manpower will not address the personnel 
challenges of today and tomorrow. We also need to focus on 
retention, quality of life, and fostering the culture of 
respect for all service members. These are areas in which I 
believe current efforts are insufficient. Skilled women and men 
are abandoning the military in response to a persistent plague 
of harassment, assault, and degradation. Further cuts to family 
programs and housing allowances run counter to trends in the 
private sector, providing even more enticement to leave.
    We also need to think creatively about how the services 
manage people. I am interested in hearing how the services are 
going to transform their personnel management policies to 
better manage and retain talent. There have been many proposals 
over the past few years, and many of these initiatives can be 
accomplished internally without changes in law but will most 
likely require a cultural shift, which has always seemed to be 
the biggest challenge.
    I understand that this may be General McConville's last 
hearing as the Army's personnel chief and that he may be moving 
up. Thank you for all you have done as Army's G-1.
    And thank you, Mr. Chairman. I look forward to hearing from 
our witnesses.
    Mr. Coffman. Thank you, Ranking Member Speier.
    Let me welcome our panel:
    Lieutenant General James McConville, Deputy Chief of Staff, 
G-1, United States Army. Additionally, I would like to also 
congratulate General McConville on his nomination to be the 
United States Army Vice Chief of Staff.
    Vice Admiral Robert Burke, Chief of Naval Personnel, United 
States Navy.
    Lieutenant General Mark Brilakis, Deputy Chief of Staff for 
Manpower--I am sorry. Deputy Commandant for Manpower and 
Reserve Affairs, United States Marine Corps.
    Lieutenant General Gina Grosso, Deputy Chief of Staff for 
Manpower, Personnel and Services, United States Air Force.
    General McConville, you are now recognized for 5 minutes.

  STATEMENT OF LTG JAMES C. McCONVILLE, USA, DEPUTY CHIEF OF 
                 STAFF, G-1, UNITED STATES ARMY

    General McConville. Thank you, sir.
    Chairman Coffman, Ranking Member Speier, distinguished 
members of the committee. I would like to thank you for the 
opportunity to appear before you on behalf of the United States 
Army. I have submitted a statement for the record, but I would 
like to highlight a couple of points.
    The Army's people--our soldiers, our civilians, our 
retirees, veterans, and families--are our greatest asset. They 
are our greatest weapons system, and there is a continued need 
for a ready force, one that is fully manned, fully equipped, 
and trained, as evidenced daily by the international events. 
Predictable and timely funding are key to manning the Army and 
accomplishing our missions. We thank you for the increase in 
end strength of 28,000. That will improve our readiness and 
ensure that the Army has better manned formations.
    I want to thank you for all you have done. And as we move 
into the future--you asked about talent management--we are 
moving from a personnel management system to a modern talent 
management system that will allow us to more effectively manage 
all three components of the Army.
    Diversity is important to the Army. Through our outreach 
and marketing efforts, we are increasing the diversity of our 
force in underrepresented branches and occupations. We are 
committed to giving all soldiers the opportunity to serve in 
whatever military occupation they can meet the standards of. 
Currently, all military occupations are open to women, and 
women serve in every battalion in the Active Army.
    We remain focused on personal resiliency and suicide 
prevention with world-class programs for our soldiers, 
civilians, and families, and are aggressively working to 
decrease the stigma with seeking behavior health care.
    Sexual assault and sexual harassment have no place in our 
ranks and diminish our readiness. Our recently published 
Workplace and Gender Relations Survey of Active Duty Members 
shows a decrease in prevalence and increase in reporting, but 
there is much work to be done.
    At the end of the day, the Army's people, the men and women 
who serve our country today, along with their families, and all 
those are vital to the security of our Nation.
    I thank you for your continued support of the All-Volunteer 
Army and look forward to your questions.
    [The prepared statement of General McConville can be found 
in the Appendix on page 34.]
    Mr. Coffman. Vice Admiral Burke.

    STATEMENT OF VADM ROBERT P. BURKE, USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Burke. Chairman Coffman, Ranking Member Speier, and 
distinguished members of this committee, thank you for the 
opportunity to appear before you to discuss Navy manpower, 
personnel, training, education, and family support programs.
    I am honored to represent the men and women of the United 
States Navy. For 240 years, the Navy has been a cornerstone of 
American security and prosperity. Now more than ever, the Navy 
is important to national security and so are its people. As 
Chief of Naval Personnel, I am responsible for ensuring our 
ships, squadrons, submarines, and stations are fully manned 
with sailors who are ready to undertake the many jobs and tasks 
we ask of them. This responsibility includes finding and 
recruiting talented individuals as well as executing training 
pipelines that transform sailors into highly skilled maritime 
warriors.
    While the Navy has healthy recruiting, retention, and 
manning today, it is vital we update policies that position us 
to deal with challenges before we are confronted with a crisis. 
As with the weapons systems we use, we must continue to refresh 
our personnel system to keep pace with the rapidly changing 
world, and we must do so with a sense of urgency. Our workforce 
must be poised to adapt quickly to new and evolving threats as 
we continue to work to attract and retain the very best sailors 
in an increasingly competitive talent market.
    We will continue to evaluate our policies, practices, 
delivery systems, and when appropriate, we will pursue 
additional avenues, with your help, to improve readiness and 
also to provide sailors choice and flexibility.
    Sailor 2025 is an effort we began a few years ago and is a 
roadmap to help us do just that. Today it consists of about 45 
different initiatives aimed at modernizing our personnel 
management and training systems to more effectively recruit, 
train, and manage our force while also improving the Navy's 
warfighting readiness. At the foundation of these initiatives 
is an effort to streamline and optimize our organizational 
processes. Today, our success greatly depends upon the 
extraordinary efforts of sailors and Navy civilians working 
tirelessly to overcome an aging personnel business model in a 
noncoherent and manually intensive family of 55 personnel IT 
[information technology] systems. That is why we are 
transforming the way we operate, leveraging modern commercial 
IT capabilities and practices that will help us improve fleet 
readiness and customer service to our sailors, reducing 
operating costs and helping us to manage our organizational 
data and programs.
    Ultimately, this transformation is intended to holistically 
improve the way we manage sailors' careers and deliver 
personnel readiness to our Navy.
    I look forward to working with you as we build the Navy of 
tomorrow together, and I look forward to your questions. Thank 
you.
    [The prepared statement of Admiral Burke can be found in 
the Appendix on page 47.]
    Mr. Coffman. General Brilakis.

 STATEMENT OF LTGEN MARK A. BRILAKIS, USMC, DEPUTY COMMANDANT 
  FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

    General Brilakis. Thank you.
    Chairman Coffman, Ranking Member Speier, distinguished 
members of the subcommittee, it is my privilege to appear 
before you to discuss your Marine Corps.
    Marines are the foundation of the Corps. They are the 
services' most critical resource and always will be. Your 
Marines are recruited, educated, trained, and retained to win 
our Nation's battles. Everything we do in the Marine Corps must 
contribute to their readiness and their ability to win in 
battle.
    Overall, Marine Corps recruiting and retention remains 
strong. Our recruiters continue to find high-quality men and 
women of character who want to take up the challenge to be 
United States Marines. We will make our recruiting mission this 
year, and we will have a start pool for next year above 50 
percent. Over 99 percent of those who we will ship will be tier 
1 traditional high school graduates or the equivalent.
    We thank you for the increased end-strength authorization 
in last year's NDAA [National Defense Authorization Act] that 
takes us to 185,000 in the Active Component. This increase 
serves to enable our retaining critical warfighting 
capabilities while improving information-related capabilities 
and capacities necessary in an increasingly dynamic operating 
environment.
    Along with the other services, the Marine Corps is 
diligently preparing for the new Blended Retirement System 
[BRS] that goes into effect on January 1st. This new system 
represents the most significant change in military compensation 
in many years. So the financial education of each Marine is a 
priority. To this end, we have implemented an integrated 
communications plan to increase awareness. I have personally 
discussed the BRS at major installations with our leaders and 
recently spoke to our prospective commanders course about the 
challenge of preparing over 184,000 Marines in both the Active 
and the Reserve Component for this important opt-in decision 
during 2018. We must get this right. Thereafter, we will 
closely be monitoring the BRS for any unintended consequences, 
including those affecting retention.
    Your Marines are proud of what they do. They are proud of 
the Eagle, Globe, and Anchor, and what it and each Marine 
represents to our Nation. With your continued support, a 
vibrant Marine Corps will be ready to meet our Nation's call.
    Thank you again for the opportunity to present this 
testimony, and I look forward to your questions.
    [The prepared statement of General Brilakis can be found in 
the Appendix on page 60.]
    Mr. Coffman. General Grosso.

STATEMENT OF LT GEN GINA M. GROSSO, USAF, DEPUTY CHIEF OF STAFF 
 FOR MANPOWER, PERSONNEL AND SERVICES, UNITED STATES AIR FORCE

    General Grosso. Chairman Coffman, Ranking Member Speier, 
and distinguished members of the subcommittee, thank you for 
the opportunity to appear before you today to deliver the Air 
Force personnel posture for fiscal year 2018.
    America's Air Force is always there, providing global 
vigilance, global reach, and global power to combatant 
commanders around the world. However, being always there comes 
at a cost to equipment, infrastructure, and, most importantly, 
our airmen. Sustained global commitments and continued 
budgetary uncertainty have diminished our ability to 
successfully balance capability, capacity, and readiness. 
Simultaneously, the Air Force experienced increased demand in 
enduring missions and growth in new mission sets such as cyber, 
remotely piloted aircraft, information surveillance and 
reconnaissance, and special operations.
    The Air Force is currently facing three distinct personnel 
challenges: first, the need for increased end strength to 
support current mission requirements; second, the national 
pilot crisis; and, finally, meeting the quality-of-life and 
quality-of-service needs of our airmen and their families.
    Our first challenge is obtaining the end strength the Air 
Force needs to support current mission requirements. We are 
grateful for the congressional support to increase fiscal year 
2017 Active Duty end-strength levels to 321,000 airmen. Even 
with this increase, Air Force readiness depends on responsible 
growth in fiscal year 2018 to a requested total force end-
strength level of 675,000 airmen. This growth is necessary to 
support current operations.
    Our second challenge is the national pilot crisis. As you 
are aware, we discussed the pilot shortage at length in our 
March 29 hearing. I would just add to that discussion that we 
are meeting with several airline senior executives tomorrow to 
seek ways to collaboratively address the national pilot 
shortage.
    The third challenge to note today is ensuring we meet the 
quality-of-life and quality-of-service needs of our airmen and 
their families. Our force readiness depends on a strong, 
resilient force. We are increasing resiliency skills programs 
by adding installation resilience trainers, evaluating military 
family needs, and ensuring airmen exposed to combat and 
traumatic events receive needed care. Unfortunately, working 
against our resiliency efforts is any form of interpersonal or 
self-directed violence, to include sexual assault and suicide. 
Any number of incidents is one too many.
    Additionally, violence is not always physical, as forms of 
violence have bled into social media. Since my testimony to 
this committee on the Air Force's social media policies, the 
chief of staff chartered a working group to evaluate the 
policies in place for appropriate conduct online and via social 
media.
    New guidance is currently in coordination. This guidance 
will be punitive and will be completed and issued in the next 
60 days.
    As we move beyond our immediate challenges, we are planning 
and preparing for the future. To do this, the Air Force 
established a comprehensive human capital strategy across six 
lines of effort to address talent planning, talent acquisition, 
talent development and utilization, talent evaluation, 
compensation and retention, and, finally, transition. Our 
talent management strategy focuses on how to best leverage the 
abilities of our total force airmen, maximize efficiencies, and 
increase human performance to produce warfighters and leaders 
for the Air Force and joint force.
    To further our status, we established a Talent Management 
Innovation Cell to rapidly identify and deploy initiatives 
within existing authorities. As this team produces policies and 
programs to better attract and retain talent, we will work with 
our service partners and the Office of the Secretary of Defense 
to present options to Congress to modify or add authorities as 
needed.
    Our talent strategy would not be possible without the 
support and authorities Congress has already given us. For 
example, we are using the Career Intermission Program authority 
to provide career flexibility to our airmen and their families. 
Additionally, the Air Force is grateful for congressional 
support in continuation of direct hire authorities to hire 
talented civilian airmen directly from our universities, expand 
the access of professionals for our depots, and increase hiring 
speed to bolster our cyber mission forces.
    We also appreciate the authority granted for expanded 
parental leave and the first aviation bonus increase in 18 
years. The increased bonus will help alleviate our pilot crisis 
by retaining more pilots after their initial Active Duty 
service commitments.
    Thank you for allowing me to cover our current personnel 
challenges today and share with you how we are preparing for 
the future. I look forward to your questions.
    [The prepared statement of General Grosso can be found in 
the Appendix on page 78.]
    Mr. Coffman. Thank you, General Grosso.
    First question to the Army, Lieutenant General McConville: 
I am concerned--and I think the Oversight and Investigations 
Subcommittee for the House Armed Services Committee looked at 
this issue. And that is, in Afghanistan, force management 
levels, and that what the combatant commander was, quite 
frankly, forced to do, was kind of work with those numbers. And 
in working with those numbers--for instance, helicopter units, 
they displaced the enablers of the maintenance personnel with 
civilian contractors, I believe at a higher cost--not only at a 
higher cost, but really, I think, compromising the technical 
skills of those enablers that didn't have the airframes to work 
on while they were in Afghanistan. So what they did, so the 
objective was, they only allowed so many uniformed military 
personnel--to supplant some of those uniformed military 
personnel with contractors. I think we need a policy of what we 
are really not going to do in terms of enablers. Maybe the 
policy was simply wrong to begin with. But I wonder if you can 
reflect on that?
    General McConville. Well, I can, as far as--I think it is 
absolutely critical that we train the entire force. So having 
commanded aviation units--actually, people tend to focus on the 
pilots. But the maintainers, the people that fix the 
helicopters, the people that refuel those helicopters, if they 
don't deploy with you, you need to make sure that they are 
getting the training someplace else, because, if not, those 
aircraft will not fly, and when you return from that 
deployment, the pilots redeploy from that deployment, you will 
not have a unit that is ready to go to combat. So I think it is 
very, very important that, if the troops did not deploy with 
all their enablers, those enablers have the opportunity to get 
the training. And that is what we are doing right now.
    Mr. Coffman. And I guess it is at our policy level to say, 
you know, it is simply wrong to send those aircraft frames 
without the enablers simply because we are trying to show the 
American people that our numbers, our troop numbers, are down, 
when the reality is we are just substituting uniformed military 
personnel for higher priced contractors in a war zone. And so I 
just think that is inappropriate. And I think one thing that 
this subcommittee will take a look at is, where do we draw the 
line in terms of what is inappropriate for a civilian 
contractor to do versus a uniformed military?
    I would like to hear from each one of you. So many times I 
think we talk more about the officer's side of the equation. 
But on the enlisted side, what is the--a critical career field 
that it is difficult to--I think accessions are not a problem, 
I am assuming--but to retain. In terms of retention, what would 
be a career field in your respective branch of service that is 
difficult, in terms of retention, on the enlisted side?
    Why don't we start with you, General Grosso?
    General Grosso. Sir, on the enlisted side, we have, 
actually, unprecedented retention, with the exception of five 
career fields that we are following closely: cyber defense; 
battlefield airmen, which is our PJs [pararescue specialists], 
our SERE [survival, evasion, resistance and escape 
specialists], our TACPs [tactical air control party 
specialists]; intelligence; explosive ordinance disposal; and 
then select nuclear enterprise specialists.
    Mr. Coffman. This is on the retention side?
    General Grosso. This is on the retention side, yes, sir. 
And we use the tools that you have given us: selective 
reenlistment bonuses, career status retention bonuses, things 
that we can do in the assignment process, giving more 
flexibility and more say in the assignment process, watching 
family issues to understand if there are some family challenges 
there. But we have over 200 enlisted specialties. So this is a 
small subset that we are not----
    Mr. Coffman. What is the most critical out of the five?
    General Grosso. We don't have a way to--we don't rate these 
one to five. We don't think of it that way. Although, we 
don't--we are not retaining enough of these specialties to 
sustain the force, and we focus on all of these to fix 
individually.
    Mr. Coffman. General Brilakis.
    General Brilakis. Sir, thanks. We have some fields: cyber--
--
    Mr. Coffman. Okay.
    General Brilakis [continuing]. Some intel fields, HUMINT 
[human intelligence], counterintel [counterintelligence]. Those 
have been challenged with retentions. Part of the challenge, 
some of our MOS [military occupational specialty], especially 
in cyber, are what we call lat [lateral] move MOSes. So we take 
junior Marines from various MOSes and give them those 
requirements, because it is very technical, very difficult 
training. There are incentives that we use to attract those 
individuals. And we are taking a look at how we have contracted 
them in the past and how we will do it in the future, whether 
we finish the training, get your certification, and then you 
serve out your contract length.
    So there are a number of different MOSes--in the combat 
arms, we are doing very well. In the aviation community, we are 
doing very well.
    Mr. Coffman. Okay.
    General Brilakis. It is really in those low-density, high-
demand MOSes and some of the more highly technical MOSes where 
we are having some retention challenges. We use the SRBs 
[selective reenlistment bonuses], and we have in the past used 
an operating--what we call an OpFor Kicker.
    Mr. Coffman. Vice Admiral Burke.
    Admiral Burke. Yes, sir.
    For the Navy, our number one challenge continues to be our 
nuclear-trained enlisted rating. And then a very close tie 
there would be the linguists and the cryptology specialists, 
almost identical vocational aptitude requirements, you know, 
required both through recruiting nukes and the linguists. So 
they are both a recruiting challenge and a retention challenge.
    And then, on the retention front, number three and four 
after that would be cyber offense and defense, and then all the 
advanced electronics fields. And we are managing all of those 
retentionwise with the SRBs. We are having to start to ratchet 
those numbers back up.
    Mr. Coffman. Thank you.
    Lieutenant General McConville.
    General McConville. Cyber is huge for training.
    Mr. Coffman. Okay.
    General McConville. These kids come in with incredible 
capabilities. And then we start to get into the languages and 
cryptology type things where they are very marketable to other 
organizations.
    Mr. Coffman. Okay.
    Okay. Ranking Member Speier.
    Ms. Speier. Thank you, Mr. Chairman. Thank you to our 
witnesses again.
    I am trying to get handle on the 2017 NDAA.
    Lieutenant General McConville, the Army had an addition of 
how many? Is it 16,000?
    General McConville. It is 16,000, ma'am, in the Active. It 
is 28,000 total. So our Reserve had--National Guard had an 
increase of 8,000 and Reserve had an increase of 4,000.
    Ms. Speier. Okay. And the Navy, Vice Admiral?
    Admiral Burke. We were nearly flat.
    Ms. Speier. Flat.
    Marines?
    General Brilakis. Ma'am, we had a 3,000-person increase in 
the Active Component, none in the Reserve Component.
    Ms. Speier. Air Force?
    General Grosso. Ma'am, 4,000 in the Active Component and a 
steady state in the rest.
    Ms. Speier. Okay. So let's start with you, General 
McConville. It appears that you were originally going to have 
to reduce your strengths by some 16,000 or 15,000. And then, 
all the sudden, it reversed to an increase of 16,000. How did 
you accomplish that? And what is the cost associated with that?
    General McConville. Well, when we started the year--I will 
talk about the Active Force--it was 475,000 starting the year. 
And we were on a path to reduce the Active Component to 
460,000. So we are basically going to--if nothing happened, if 
the NDAA 17 didn't come out, we would have reduced the Army by 
15,000. The authorization we got was 476 [thousand]. So it 
stopped the reduction, the drawdown. But the Army is coming 
down. So all the systems were set to bring the Army down. So 
what we are doing is, is we were in a drawdown, and now we are 
reversed from that drawdown. What we did was we went ahead and 
increased our enlistments by 6,000. We retained 9,000 more 
soldiers in the field. And we increased our officer accessions 
by a thousand to get that 16,000.
    Ms. Speier. Vice Admiral Burke, you didn't have--you were 
flatlined. Okay.
    Lieutenant General Brilakis.
    General Brilakis. All right. Yes, ma'am.
    We were at 202,000 at the height of our strength. And we 
were coming down some 20,000. We got down to--we were heading 
down to 182,000. We did that over the course of 4 years. Then-
Commandant Dunford requested a 1-year extension to stay at 
184,000. And so where we found ourselves was a little bit below 
184,000. The Congress gave us the additional 3,000. And so we 
were going to meet that by accessing 2,000 additional Marines. 
And we have been very clear. We are not going to compromise on 
quality. And so we will make the rest of it up in the coming 
year. Because the law came later in the year and the money came 
even later, we did not want to do any retention actions that 
would compromise quality.
    Ms. Speier. Okay. Lieutenant General Grosso.
    General Grosso. Ma'am, we reached a low in fiscal year 2016 
of 311,000. So we had a big push in fiscal year 2016 where we 
grew to 317,000. And to do that, we had to put some additional 
resources into the recruiting effort, both people and dollars. 
But we had the capacity in our training infrastructure. So I 
can get you the dollar cost of that.
    Ms. Speier. Okay. So advertising, how much do you spend on 
advertising for each of your services?
    General McConville. About $230 million.
    Ms. Speier. Advertising?
    General McConville. For marketing. For total marketing.
    Ms. Speier. Wow. Okay.
    Navy?
    Admiral Burke. Ma'am, we have been on a declining trend: 
2017's budget is $47 million; that is down from $56 million 2 
years prior.
    General Brilakis. The ideal requirement is $100 million. 
The fact is we were budgeted about $82 million this year.
    Ms. Speier. Okay.
    General Grosso. We are about $110 million for advertising.
    Ms. Speier. Okay. So, if we add you all up together, we are 
looking at close to, what, $450 million, give or take.
    How do we measure the value? I mean, because you advertise 
at NASCAR [National Association for Stock Car Auto Racing], how 
do we know--what are the deliverables from that?
    General McConville. Well, what we have is we have metrics 
that we look at. And some of the metrics include how many 
people that were not favorable toward maybe serving in the 
military. By the basis of advertising, we track influences, how 
many people are favorable, how many people come on to our Go 
Army social media. And then we track the investment of those 
dollars and the return on how many leads we get of young men 
and women that want to actually come into the Army.
    Ms. Speier. So, in politics today, you know, the cost of 
advertising is very high, whether it is print or TV. And there 
is a whole movement to social media, which is much cheaper. So 
I am curious to what extent--my time is out--so maybe in the 
second round we can talk about it. It seems like we would be 
much better served to take that money, put some of that into 
social media, and reduce what we are spending on some of these 
boutique operations that we have going on. And it sounds like, 
basically, from most of you, with the exception of Lieutenant 
General Grosso, that you are not having any problem filling 
these vacancies. It appears some of the issues are around 
retention, particularly in cyber and intelligence. But we can 
address that second round.
    Thank you.
    Mr. Coffman. Thank you, Ms. Speier.
    Mr. Bacon, you are now recognized for 5 minutes.
    Mr. Bacon. Thank you. I want to thank each of you for your 
leadership. And I think you each have a tough job. And I think 
Congress owes each of the services better. We have raised 
money. We have cut money. We have done sequesters. We have done 
CRs [continuing resolutions]. And that always impacts how many 
people we have in each of the services.
    And after 30 years of experience myself, people are at the 
end of that whip, going up and down. And I think we owe you 
more stability and more predictability. So we are going to work 
hard to do that.
    I want to ask each of you: What is the number one reason 
for an officer in your service, the number one reason for an 
enlisted in your service, to decide to get out early? I just 
want to see what we can learn from it. I will just start off 
with General McConville.
    General McConville. I think many come in to serve. What we 
are seeing is they are taking the opportunities. They are 
taking the training. They want to serve their country. And they 
want to live the American dream. You come in; you serve your 
country for a tour. That is what we like them to do. They take 
the GI Bill. They go off to college, raise a family. And what 
we want them to do is become soldiers for life, and go out 
there and hire our vets in their occupations and also inspire 
other young men and women to serve. And what we have found is 
79 percent of our recruits that come into the Army have a 
family member that has served. So we have kind of tasked them 
to do that.
    Mr. Bacon. Thank you.
    Admiral Burke.
    Admiral Burke. Sir, it is the same thing for the Navy. You 
know, whether they stay in for a career in the Active Component 
or they go in the affiliate Reserves or go on and be a great 
citizen and advocate for the Navy in society.
    You know, some folks come in to get an education. They come 
in to grow up and learn about themselves, set themselves up for 
another walk in life.
    Some folks don't necessarily agree with the long periods of 
family separation and deployment life that the seagoing service 
has. So that is probably number one.
    Mr. Bacon. I did one tour on the Carl Vinson, and I can 
speak, that was an experience for this airman.
    Admiral Burke. Yes, sir.
    General Brilakis. Yes, sir. Thirty-nine years ago, I signed 
on with the intention to serve 3 years.
    Mr. Bacon. Uh-huh.
    General Brilakis. I was going to go be a captain of 
industry with my business degree. And here I am after two times 
where I actually thought about leaving the service, but I 
decided----
    Mr. Bacon. Someone did a bait-and-switch on you somehow.
    General Brilakis. That is right, sir.
    Seventy-five percent of every annual cohort that we recruit 
will leave the service.
    Mr. Bacon. Right.
    General Brilakis. With two-thirds of the Marine Corps in 
the operating forces, it is a young force. And we have no place 
to put everybody in the career force. We have youngsters that 
join the Marine Corps to do just that: join the Corps, prove 
themselves, join the team. Whether they joined to fight in the 
last decade or whether they are joining to serve, as they are 
doing now, those individuals joined the Marine Corps to get 
that experience, to be that Marine. We try to mold them and 
send them back to be good citizens. But we have got a lot of 
folks who have got a plan in life, and the Marine Corps is part 
of that plan. And staying in the Marine Corps is not part of 
that plan. And I think I can say the same thing for our 
officers.
    Mr. Bacon. Thank you.
    General Grosso.
    General Grosso. I think the number one reason they tell us 
is separation from family. So, when you are at that point where 
either your enlistment is up or your officer doesn't have a 
commitment, they evaluate their situation and their 
predictability to be separated and make a decision.
    Mr. Bacon. Just from my own personal experience, I think 
when the family member has said they have had enough, it is 
hard for the Active Duty member or Guard and Reserve to stay 
in. We are over having a good time--enjoying ourselves, or the 
morale, the mission, inspires us. But when the family has said 
they have had enough, it is hard to stay in.
    I would also just point out, my experience has been when we 
feel like we are part of an elite service, with modern 
equipment, great training, people want to be part of the elite. 
But when we have cut training, have 25-year-old equipment, that 
also undermines our retention.
    So one other question for my time here. What are the rates 
of your nondeployable folks? I think we are growing--I am 
hearing, anecdotally, anyway, that some of the services, that 
number is growing, which means it is falling on fewer and fewer 
people, which means then they have more health problems and 
becomes a cycle. Are you seeing the trends growing for your 
nondeployables for health reasons? And should we fix that 
somehow?
    General McConville.
    General McConville. The Army, we are about 10 percent 
nondeployables. We have actually come down from the peak of the 
war where we were running about 14 to 15 percent.
    What we are doing is really, at every phase of when we 
bring soldiers, we put in an occupational and physical 
assessment tests. So you have to get in shape before you start 
initial military training. Then when you come to initial 
military training, if you are not ready to start, we get you in 
shape there. And when come to the unit, we are usually putting 
physical therapists in the unit because what we are finding is 
musculoskeletal injuries are the biggest cause of soldiers 
being nondeployable, and we have got to work them through the 
whole cycle to make that happen.
    Mr. Bacon. Admiral Burke.
    Admiral Burke. In the Navy, we have about 335,000 Active 
Component folks. We have a little less than 2,000 that are 
nondeployable because of legitimate medical issues. And then we 
have got about 18,000 that are overdue for their dental exams. 
And that is something that we continuously work on. We are in 
the midst of changing our program for overseas and sea duty 
screening to make it on par with our physical fitness program, 
put the onus on the individual; it has to be done at certain 
period densities. So we are changing that paradigm.
    And then the only other factor is operational holds for sea 
duty for pregnant women. But very, very low numbers.
    Mr. Bacon. Thank you. I know I am out of time, Mr. 
Chairman. But hopefully they can--maybe the rest can answer the 
question. I defer to you.
    Mr. Coffman. Yeah. Go ahead and finish.
    General Brilakis. Thank you, Mr. Chairman.
    Sir, you have got a couple of different types of 
nondeployables: those in the brig, those in the hospital, those 
that are in the Integrated Disability Evaluation System, et 
cetera. Those are kind of the long-term nondeployables. And 
then you have the short term, those that go to the hospital, 
get a surgery, come back, rehabilitate, and come in and out. I 
can't give you the exact numbers. They are something we track. 
I have to brief the Commandant on them quarterly and explain to 
him.
    As far as that goes, we have taken efforts, steps, to 
reduce the backlog in the Disability Evaluation System. We are 
making progress as far as that goes. We have got just over 
2,000 Marines in that particular process.
    That is a complex question, but I would be happy to have 
that discussion with your staff offline.
    General Grosso. Myself as well. I did not bring that data 
with me, but I will be happy to get that to you.
    Mr. Bacon. Thank you.
    Mr. Coffman. Thank you.
    Ms. Tsongas, you are now recognized for 5 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon to 
our witnesses.
    I appreciate the chance to talk with each of you today 
about the military services recruitment efforts. And in 
particular, I have an interest in the importance of recruiting 
more women into the Armed Forces. Readiness depends--and 
meeting all the needs that you all have--depends upon the 
abilities of the services to take advantage of the talent pool 
across all segments of society. And this is particularly true 
when it comes to leveraging the talents of women, as they 
constitute half of our citizenry and are proportionately 
underrepresented in all the services.
    So, with this in mind, I would like to ask all of you: The 
most recent report of the Defense Advisory Committee on Women 
in the Services, DACOWITS, notes that some of the services have 
instituted, quote, ``credible, meaningful accession goals for 
women,'' unquote, in connection with integration of women into 
previously closed combat arms, military occupational 
specialties in units. So I would like to ask each of you, have 
you set such goals? And if you have, how you have adapted your 
recruitment strategies to meet those goals?
    General McConville. Well, for the Army, I would just like 
to say we have 170,000 women in the United States Army right 
now, which is a significant portion of the force. We have women 
serving in every infantry, armor, and artillery battalion and 
every brigade combat team in the Army. And we are seeing, as we 
have opened up all the occupations to women, many more women 
are serving. We are seeing places like West Point where--I was 
the second class with women at West Point. When I went, in 
1981, we were running probably 5 or 6 percent. We are seeing 
rates of 24 percent in the classes coming in. So we are seeing 
an increase.
    We have not set exact goals. But in the field, recruiting, 
we are actively recruiting women. And we need to because they 
are high quality. And as we grow the Army, we are not going to 
reduce the standards. So we need high-quality women and high-
quality everyone to come into the Army.
    Ms. Tsongas. Admiral Burke.
    Admiral Burke. Yes, ma'am. Today, the Navy is 18 percent 
women.
    The last 3 years, we have exceeded 25 percent women 
enlisted accessions. This last year was almost 27 percent.
    The Naval Academy graduating class this year will be almost 
27 percent.
    For us, it has become a readiness issue with technical 
graduates, numbers of women with technical degrees growing and 
the number of technical degrees that we rely on to do the jobs 
that we have in the Navy. So it is an increasing readiness 
issue.
    We have drastically increased the mixed-gender 
representation in our recruiting material. Last year, that 
included shifts in what we do for special warfare, including 
things that we do out in the field when we represent what we 
call our warrior challenge rating. So that is SEAL [Sea, Air, 
and Land teams], special warfare combat crews, EOD [explosive 
ordnance disposal] divers.
    And then we send out a lot of female representatives for 
public events and things of that nature.
    And then, the submarine force as well, we are doing quite 
well in that area.
    So, progress.
    And then, in terms of where we are--what roles we are 
moving those women into, which occupational specialties, or 
ratings as we call them in the Navy, we are moving them into, 
you know, fields that had been traditionally underrepresented 
by women, increasingly moving them into technical fields and 
increasingly--they are becoming increasingly comfortable in 
those fields that had been previously underrepresented by 
women.
    So we need them in those fields. We need them to do those 
jobs.
    Ms. Tsongas. General Brilakis.
    General Brilakis. Representative Tsongas, thank you.
    We have no specific quota for women other than more. The 
Commandant has put us on a trajectory to increase the number of 
females represented in the Marine Corps. The initial goal is 10 
percent. That is maximizing the existing infrastructure we have 
for our recruit training. I owe him an answer at the end of the 
summer on a plan to go to the next particular level as far as 
that goes.
    Accompanying that direction was decisions to improve the 
quality of the young ladies that we bring into the Marine 
Corps. We have seen an increase in their intelligence scores, 
their physical fitness scores. We have seen a reduction in the 
attrition at recruit training. And all those point to a 
direction that Recruiting Command has taken the drive toward 
quality seriously.
    Then I think your question was really kind of focused on 
quotas in the integration of our previously closed units. We 
don't have any quotas. We don't have quotas for our male 
Marines. Every individual that comes in to join the Marine 
Corps, we ask them what they want to do, and we try and fit 
that to what they are trying to aspire to.
    Ms. Tsongas. Could you add a few minutes for General Grosso 
to answer, Mr. Chairman?
    Mr. Coffman. Yes.
    General Grosso. Ma'am, we do have applicant goals for both 
the Academy and for ROTC [Reserve Officer Training Corps]. 
Obviously, that doesn't mean they get accessed. And we have 
seen the number of women going--increasing due to those 
applicant goals. But we do have women in almost every skill in 
the Air Force with the exception of those we just opened, our 
high-end battlefield airmen. And we do targeted recruiting for 
women across all of our skill sets.
    Mr. Coffman. Mr. Kelly, you are now recognized for 5 
minutes.
    Mr. Kelly. Thank you, Chairman. And thank each of you 
witnesses for being here today.
    Going back just real briefly on what I think General Bacon 
asked--or Congressman Bacon asked--on nondeployables. I am one 
of those guys who served 31 years in the Reserves and done 
multiple deployments. It bothers me when you are permanently 
nondeployable. Temporary is a whole different ball game. We 
need to get those guys back in the fight, guys and girls back 
in the fight. But these permanently nondeployables, if I play 
in the NFL [National Football League] and I tear my ACL 
[anterior cruciate ligament] and I can't run anymore and I 
don't run a 4.4 anymore, I run a 4.9, I don't still get to play 
football. So, if you can't go and do the things that you are 
required by your country, then we need to look for a way to get 
those guys into a thing, which leads me to my next point, which 
is the new Blended Retirement System. And, guys, I am scared to 
death of that because in our low-density MOSes in the Army--and 
I speak Army speak more than I do the other--but Signal and MI 
[Military Intelligence], and those very tough branches that you 
have to have high scores to get in, the training is better in 
the military than you can get in the civilian world. And so 
there is a high pull to get those guys out. And the promotions 
aren't there, necessarily, and the money. And with the Blended 
Retirement Systems, we are going to lose those critical guys, 
those captains and majors. We are going to lose those E-6s and 
E-7s at the peak of their career. I am wondering, what are we 
doing now to address that 12- to 14-year soldier or airman? 
What are we doing now to address that, to make sure that we 
don't get a huge retention problem 12 years from now?
    General McConville. Well, from the Army standpoint, we are 
moving from an industrial age personnel management system to 
what I would call a talent management system. And, sir, your 
point is well taken. It used to be, if you got someone past 10 
years, you basically had them for 20. I find even today with 
the young men and women, they are incredibly talented--but 
having three that are in the service right now--they are 
millennials, and they look at things differently than we do. 
They want their talent managed. They want us to respect what 
their knowledge, skills, and abilities. And we can't treat 
them, you know, kind of like round pegs and expect them to go 
through their career.
    We are going to have to manage their talents. We don't know 
yet what the Blended Retirement System is going to do. But 
there are some opportunities here. There are opportunities, the 
way the system is done, that we can give critical bonuses at 
the 8 to 12 year. There are things that we have to do in the 
system that are getting the folks in the right job, in the 
right place, so they want to stay.
    When we look at cyber, the MOS, if we can incentivize them 
right, they will stay because they get to do things in the Army 
that they can't do in the civilian world. And as you all 
understand, there are some incredible things that they get to 
do serving their country. We have to compensate them so the 
families will stay.
    Mr. Kelly. Yes, sir. Because I have one more question I 
want to get to. So, if you can be quick, I would like to hear 
from all of you real quick.
    Admiral Burke. Yes, sir. From the Navy standpoint, similar 
approach. With our Sailor 2025, it is about providing that 
flexibility in those career choices. But, again, I think the 
flexibility you gave us in the 2017 NDAA to control the timing 
of that continuation pay. And then, as we adjust our selective 
reenlistment bonuses around that, I think we are going to have 
the latitude we need to be able to control the retention 
behavior we need.
    General Brilakis. Sir, it is incumbent on us to give our 
Marines good training so they can make the choice, that opt-in 
choice, and decide whether they want to remain in the legacy 
system or go to the BRS. And then I concur with you: We don't 
know what the retention behavior will be with the BRS.
    General Grosso. I believe it is--we are going to have to be 
agile in that continuation pay and have a modern system that 
people want to stay in.
    Mr. Kelly. And then my final question--and just real 
briefly. I really want you to think about it, and if one of you 
has a chance to answer, but I really want you to think about 
this. In World War II, a lot of guys joined and they were 
airborne because they got that $50 jump pay. I mean, it made a 
big difference. We still give jump pay and jump status and 
those things, and we have that. We really need to look at our 
legacy soldiers, whether they are in cyber, and incentives to 
make those special. You know, being airborne is special. And 
being Air SOF [special operations forces] is special. We need 
to do that with some of these low-density MOSes so that they 
are special and there are incentives. And then the other thing 
is those low-density MOSes, sometimes the promotion 
opportunities aren't there. And that probably applies across 
the Marine Corps and everywhere else. You know, we used to have 
like the spec 7s and 8s. They are not necessarily going to be 
leadership guys because they like doing the stuff that they do. 
The guy who flies an airplane wants to fly an airplane. He 
doesn't want to do some other things. And a guy who is in a 
signal unit or communications or cyber doesn't want to go 
command a company or a platoon. What he wants to do--so we 
really have to look at ways to incentivize them to stay by the 
pay. Are y'all looking at those kinds of things?
    General McConville. Yes, sir. Absolutely.
    Mr. Kelly. Thank you, Mr. Chairman. And I yield back. But 
thank you.
    Mr. Coffman. Thank you, Mr. Kelly.
    Ms. Rosen, you are now recognized for 5 minutes.
    Ms. Rosen. Thank you.
    I want to thank the ranking member and everyone here for 
their testimony today.
    I want to build a little on that, especially in the areas 
of STEM [science, technology, engineering, and mathematics]. I 
have been working on some STEM opportunities acts. And so, as 
you talk about the changing military and you talk about 
retention and the millennials and what you have to do to get 
people in linguistics and cyber--I am a computer programmer 
myself by trade. You are going to have be--you talk about 
deployables. They are deployed in a different way than maybe 
somebody who is flying or going into another space.
    So maybe they are deployed in a computer center, or they 
are deployed operating drones. So how are you going to address 
some of these changes where people are actually really deployed 
here at home, maybe more of a desk job, maybe more of an 
intellectual job? And what are you doing in our high schools 
and universities to try to get these linguistics, 
cryptologists, computer programmers, and the like?
    Anyone can start. That is fine.
    General Brilakis. Ma'am, just to break up the movement, 
huh?
    Ms. Rosen. Yeah. That is right. You don't always let him go 
first.
    General Brilakis. There is a pursuit for STEM both on the 
civilian side and on the military side, and those individuals 
who can come in and produce for the service. But, first and 
foremost, we produce Marines. And while the cyber force, as it 
is, is beginning to grow, we initially went after this as a 
lateral move. So Marines who came in, prove their capability, 
leadership skills, then move over, and get additional training. 
We have recognized with the growth of that force, that we will 
have to go into initial accessions as well.
    So the challenge is: What is it that makes up that young 
man or woman who wants to be a cyber Marine, and what are the 
skill sets that we are looking for? What is their innate 
ability? And what would indicate to us? So we are looking at 
testing regimens to see whether or not we can help ourselves 
qualify.
    Those higher skill MOSes on the enlisted side, we do that 
by seeking those that get good line scores within the ASVAB 
[Armed Services Vocational Aptitude Battery], et cetera.
    So we have been very interested in the whole STEM. How do 
you pursue that? There are a number of different activities at 
the services. I went to an Air Force sponsored cyber thing for 
high school. It was fascinating. Those kids were doing pretty 
amazing stuff. And I said we should send people to the next one 
so we can start stealing from the Air Force because they have 
come up with a really good thing. But those young men and women 
are important to us. And we are working on recognizing that and 
expanding our ability to reach out to them.
    Admiral Burke. On the recruiting front, though, you do have 
to plant the seeds early. So you have to get in even at the 
middle school level. And you have to go to science fairs, and 
you have to even sponsor those things. We do things similar to 
what the Air Force does. And we have displays and science fair 
types of activities to do, even hack-a-thons, and things like 
that and like General Brilakis was talking about and just spark 
the interest. And, you know, maybe at some point down the road, 
they will associate that interest with the Navy and come back 
and talk to us. So you have to plant that seed corn and get 
that conversation going.
    In terms of how you prepare that workforce then to--you 
know, to work at a desk job, that is actually easier. So----
    Ms. Rosen. Because your talent in some of these may be 
people who don't necessarily see themselves as a certain type 
of military man or woman, because they have maybe been in 
science or doing other things where they may not physically see 
themselves or emotionally see themselves in that way, but they 
have the talent to do these kinds of things, which we need the 
cyber iron dome, right?
    Admiral Burke. You just have to get them interested in the 
topic, and then show them the rest of the story, though, what 
it looks like when they get there.
    Ms. Rosen. Right.
    Admiral Burke. Which may not be the World War II movie of 
the military.
    Ms. Rosen. Right. Right.
    General McConville. We are actively recruiting STEM 
students. And we have done that in ROTC where, if you want to 
get an ROTC scholarship, there is a certain requirement. It is 
really a shift. For a while there, I think we got away from 
that. When we came in, you took engineering; you went to West 
Point. It was primarily an engineering school. If you got a 
master's, you got it in engineering. And we kind of shifted. 
But we are coming back. And we are coming back in a pretty good 
percentage because we need that foundation for a lot of these 
future type skill sets. So we have done things where--you know, 
Hack the Army, where we are going out to some--and our cyber 
folks are really getting out there. And, again, a lot of the 
young men and women are really excited about these 
opportunities to use those skill sets. And even in the Army, 
you still can serve in the Department of the Army civilian if 
you cannot meet the physical standards----
    Ms. Rosen. Right.
    General McConville [continuing]. And still serve your 
country. So we are offering multiple ways for people to serve 
through STEM.
    Ms. Rosen. Thank you.
    General Grosso. Ma'am, I would just add that the mission 
sells itself. And, really, a lot of it is us getting the word 
out that we have these tremendous opportunities, because I 
agree with you that people don't understand that there is 
tremendous opportunity for STEM and cyber within the United 
States military. So I go to a lot of mentoring events and a lot 
of job fairs and talk to women and men about the opportunities 
because they just don't know they exist. But then the mission--
this is what they want to do. And, as someone pointed out, 
there are some things you can only do in the United States 
military.
    Ms. Rosen. Fantastic. Thank you so much for your time.
    Mr. Coffman. Mr. Russell, you are now recognized for 5 
minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thank each of you 
not only for what you do but for being here today.
    OPTEMPO [operational tempo], deployment-to-dwell ratios, 
could y'all speak to that a little bit?
    General McConville. Yes, sir. Many have thought the dwell 
time has gone down because the troop levels have reduced in 
Afghanistan and Iraq. And that is really not the case. You 
know, we are rotating forces right now into Korea. We are 
rotating forces into Kuwait. We are rotating forces into 
Europe, along with Iraq and Afghanistan. So the dwell time has 
not come down. And, you know, the way we are trying to get 
after that is y'all have helped with growing the Army. By 
having soldiers available to conduct these task missions is 
helping us try to get that dwell time down.
    Mr. Russell. Is it a 1:2 ratio? What are we looking at 
here?
    General McConville. In some cases, it is below that.
    Mr. Russell. Really?
    General McConville. Yes, sir.
    Mr. Russell. Thank you.
    Admiral Burke.
    Admiral Burke. Sir, just to paint a picture, your pre-9/11 
Navy had about 421 ships. On any given day, we had a hundred 
ships deployed. Today, we have about 274 ships. On any given 
day, we have a hundred ships deployed.
    You know, we have kind of backed down from our days a few 
years ago, having 9-month deployments. That is just deployed 
overseas on mission.
    And we have gotten back to more predictable schedules for 
our sailors. But we are doing that by riding our ships harder 
and keeping our sailors at sea longer. So it has come at a cost 
to our sailors and their families.
    Our sailors are doing it because we have gotten to be more 
predictable. And as long as we can maintain predictability and 
some expectation of what the schedule will be, they are willing 
to continue to sustain that tempo.
    Mr. Russell. Thank you.
    General Brilakis.
    General Brilakis. Mr. Russell, thank you.
    The Marine Corps, like the Navy, is a deployed force, 
rotationally deployed force, with units heading out to Okinawa, 
out in the CENTCOM [U.S. Central Command] AOR [area of 
responsibility], and now the special purpose MAGTFs [Marine 
air-ground task forces] in Africa and also in the CENTCOM AOR. 
On top of that, you have got some of the residuals for combat 
operations, existing RFFs [requests for forces] that have gone 
on and on. So what we found, we came out of combat expecting 
this dep-to-dwell holiday. Never happened.
    We have a number of units. And in the aviation community, 
some units well below 1:2. Our infantry is just below 1:2. And 
so we are deploying, we are coming back, and we are immediately 
going into training cycle and deployment cycle, because you 
deploy to train.
    And so we are finding we are really roughing up not only 
our Marines and their families, but the gear doesn't have 
enough time to be reset. The training is being rushed before 
you go to the deployment. And while we are meeting our deployed 
requirements, the ready bench is a little bit ragged. The next 
to deploy are okay. Those at rest, it is a bit of a challenge.
    Sustaining this over time is going to be difficult. But the 
185, the additional 3,000, really just enabled us to maintain 
warfighting capability and introduce the new information 
capabilities the Commandant believes are necessary for the 
current fight in the battlefield of the future. So we still 
have no solution right now in meeting all the demands from the 
COCOMS [combatant commands] and also getting our arms around 
the dep-to-dwell challenge.
    Mr. Russell. General Grosso.
    General Grosso. We have really never left the Middle East 
since 1991. So what we find is, depending on the skill set--in 
our high-demand/low-density, they do have much shorter, some 
1:1, some 1:2. But I would say that is a small number of skill 
sets. What we find, though, is that, even on a normal rotation, 
what is happening when you come home, to get back up to speed 
on all of your mission sets, you are not home when you are 
home. And so something that we are spending a lot of time 
looking at is the time when people are at home, how do we give 
them more time? How do we give them more white space to spend 
that time regrouping? And growing end strength will also help 
us tackle some of that OPSTEMPO.
    Mr. Russell. And I think, you know, one of factors, too, 
that you look at on returning units is about a third of your 
warriors will leave just at the end of their enlistments or in 
attrition. And then, of those that you have, you are 
integrating a new batch. And then you have noncommissioned 
officers and officers that you got to get to the training so 
that they can improve their skill sets and, in the meantime, 
doing all of the refit, reorganization. And I don't think that 
is often appreciated enough. You know, so that is why I asked 
the question.
    I, like you, share great concerns over the Blended 
Retirement System. I think it makes us very vulnerable. It will 
be interesting to see in fiscal year 2018 who opts for old 
versus new. I am not sure we have got a solution there.
    And then, the last concern, Mr. Chairman, just a comment, 
our continued cutting of incentives. BAH [basic allowance for 
housing] now, on post, we are making soldiers pay living on 
post, BAH shortfalls. It was Congress that screwed that up.
    So the more incentives we cut, the old adage: Nothing is 
too good for the troops, and nothing is what we will give them. 
We have got to turn that around.
    So thank you, Mr. Chairman. I yield back.
    Mr. Coffman. Thank you, Mr. Russell.
    Dr. Wenstrup, you are now recognized for 5 minutes.
    Dr. Wenstrup. Thank you, Mr. Chairman. Thank you all for 
being here today. I appreciate it.
    So we have had really good conversation today, and the 
balance that you try to have with recruitment, retention, the 
quality of troops that you bring in, the opportunities that you 
offer someone who is joining the military, and the 
opportunities that they may have when they leave the military. 
Those are all components that go into someone making up their 
mind to serve, whether it is 4 years or for 20 years. I know 
when I hit about 12, I decided I was going to go for 20, and 
that made the most sense.
    And then the other thing that was discussed today too is, 
what do our numbers look like compared to the requirements of 
each branch and of the military, the downtime, all these things 
that you have to, you know, be considering and balancing all 
the time to meet the current expectations and needs, and 
hopefully the future expectations and needs of our military?
    And I just would love to hear what you consider to be a 
couple of the greatest challenges you have in blending all of 
those things together as you look to the future, as you look 
to--well, not only today, but if you look 10 years down the 
road, the world we are living in today. And, more so, what can 
Congress do to help you in that challenging mission?
    And we will start on the other end and go the other way.
    General Grosso. Sir, I would say that what you can do to 
help us the most is stable funding over an extended period of 
time, because the ups and downs, especially from a military 
manpower perspective, are impossible. If you just look at the--
we have been decreasing since 1991, and took a hard right up. 
Even on our civilian workforce, it is very, very difficult to 
manage a stable human capital strategy.
    General Brilakis. Sir, I will echo General Grosso's comment 
with respect to funding. Extended CRs, short periods of time to 
spend additional cash, not doing it responsibly, et cetera, is 
really a challenge for all of us.
    What our Marines expect, they expect good training, they 
expect good weapons, and they expect a good mission.
    Admiral Burke. I would echo the stable funding comment. We 
have the last 4 or 5 years kind of jump changes in end strength 
for a number of different reasons that caused us to do somewhat 
unnatural acts to meet those demands.
    But then the other thing that happens is sometimes our 
manpower overhead accounts, the things like the individuals 
accounts and the transients accounts are attractive targets to 
meet topline numbers. And even though you may have enough in 
your accounts to pay for the bodies, if you don't have enough 
to cover the overhead to have people in training you really 
can't keep the total number of bodies in there.
    Over the last 4 years, what that has translated to for the 
Navy is an increasing number of gaps at sea. Today I am at 
about 7,000 gaps at sea in my forward-deployed ships, and that 
has been cascading over the last 4 years. And every year we 
have looked to program our way out of that and it just becomes 
an attractive target.
    So you have to properly fund the overhead accounts as well 
as the total end strength.
    And then I think the continued support that you have given 
us in the flexibility to help us, all of us are doing some form 
of modernization of our personnel system, and we have 
appreciated the flexibility that you have given us as we look 
at that, because we all need to continue to take a look at 
that. We appreciate that.
    General McConville. Since timely and predictable funding 
has already been covered, what I would just like to mention is 
the qualifications of American youth. And right before 
President Kennedy took office, he wrote a paper lamenting the 
fact that only 50 percent of Americans were qualified to 
basically serve in the military. We wish it was that today. It 
is 25 percent.
    And as we go in the future, we are going to have to take a 
hard look at the ability to get these extraordinary young men 
and women to serve, and we are going to have to be very 
innovative to bring those qualified folks. And recruiting, even 
though we make it, at least for the Army, is a tough mission, 
and we have got to work that every single day.
    Dr. Wenstrup. Well, we could probably have another whole 
hearing just on the reasons for 50 percent down to 25 percent, 
and maybe we need to do that at some point.
    But I appreciate it. And I also notice some unanimity there 
on the stable funding. And I think everyone here recognizes 
that need, and I hope that we address that as we move forward.
    Thank you.
    Mr. Coffman. I have got sort of four questions related to 
accessions, and if you could go through them very quickly, 
because we are limited in time.
    One is, what is your attrition rate during the first 
enlistment through administrative or adverse separation?
    Two, have you developed better screening tools in terms of 
recruiting to not take those people in or a certain profile of 
individuals that you could, in terms of recruiting, that you 
have learned not to take through some kind of measure?
    Why is it that we are getting on the MEP [Military Entrance 
Processing], in MEP side, why do we have a gap between people 
that are accepted, deemed physically qualified, sent to recruit 
training, and then not deemed physically qualified, and sent 
back home at taxpayers' expense? You know, it is expensive. And 
why do we have that gap?
    And then I want to know how many personnel that you have 
totally engaged in recruiting, not just line recruiters, but 
support staff and command staff as well.
    Who is ready to go?
    General McConville. I am ready to go.
    Mr. Coffman. Yes. Lieutenant General McConville.
    General McConville. Twenty-eight percent attrition.
    Mr. Coffman. In the first tour of duty?
    General McConville. Yes, sir.
    Mr. Coffman. Twenty-eight percent?
    General McConville. That is down from 35 percent.
    Mr. Coffman. Wow.
    General McConville. Yes, sir. And then as far as screening, 
we have two things in place----
    Mr. Coffman. I don't mean in terms of reenlistment. I just 
mean administrative or adverse.
    General McConville. I am talking people because of 
misconduct, physical injuries, do not finish their first term.
    Mr. Coffman. Wow. I am very surprised. Okay.
    General McConville. It was running about 35 percent.
    Mr. Coffman. Wow.
    General McConville. And so it is coming down, and we are 
working that. And that is why we have put a lot of things in 
place.
    And you talked about screening. We put an occupational 
physical assessment test in place. We have a TAPAS [Tailored 
Adaptive Personality Assessment System] test; we are trying to 
get the right psychological fit. And we are doing longitudinal 
studies to allow us to bring those numbers down.
    Mr. Coffman. Okay. So then why the disparity in the 
physicals?
    General McConville. That is something we need to--I need to 
take that for the record.
    Mr. Coffman. Please do.
    [The information referred to can be found in the Appendix 
on page 97.]
    General McConville. We know that happens, but we haven't 
been able to--you know.
    Mr. Coffman. You don't know how many total personnel you 
have in recruiting?
    General McConville. Oh, 12,000, about 12,000. I will get 
you for the record, but it is about 12,000 with staff and 
recruiters.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Coffman. Okay. Vice Admiral Burke, your attrition rate 
first tour of duty?
    Admiral Burke. Is around 15 percent, about 12 percent in 
boot camp, 3 thereafter. And we are looking at some--we have 
screening tests in place. We are looking at some additional 
ones for destructive behavior profiling that we are piloting 
right now.
    The MEPS [Military Entrance Processing Station] versus our 
service screening, we think we have a problem within our own 
Navy medical community that we are looking to close the loop, 
that we are being unnecessarily conservative. And we are 
continuing to work that.
    I will have to come back to you on the exact numbers, but I 
think we are around 5,000 total, about 3,000 recruiters and 
about 2,000 additional.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Coffman. Okay.
    General Brilakis.
    General Brilakis. Mr. Chairman, non-EAS [end of active 
service] attrition can be folded a number of different ways, 
but the short answer is less than 10 percent.
    Mr. Coffman. Less than the 9 percent?
    General Brilakis. Less than 9--less than 10; 10 to 9 
percent.
    Mr. Coffman. During the whole first term? Okay.
    General Brilakis. Well, during the whole first term----
    Mr. Coffman. First enlistment.
    General Brilakis [continuing]. Year over year, I can't--I 
will take that for the record.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Coffman. Okay. But it is 9 percent in boot camp?
    General Brilakis. Our non-EAS attrition annually is less 
than 10 percent.
    Mr. Coffman. I am just concerned about in the first 
enlistment.
    General Brilakis. First enlistment.
    Mr. Coffman. That is all.
    General Brilakis. I have got to get you that answer.
    Mr. Coffman. Okay.
    General Brilakis. Yes, sir.
    Mr. Coffman. General Grosso.
    General Grosso. I don't have first enlistment, but I do 
know 6 percent is our basic training.
    Mr. Coffman. Wow.
    General Grosso. So I will get you that for the first 
enlistment.
    Mr. Coffman. Okay.
    [The information referred to can be found in the Appendix 
on page 97.]
    General Brilakis. You want to follow up with the rest of 
those?
    Mr. Coffman. Yeah. Well, how about very quickly, MEPs, why 
is there a disparity?
    General Brilakis. So the screening tools, a recruiter is 
the best screening tool we have. The process is probably the 
best----
    Mr. Coffman. But on the health side?
    General Brilakis. On the health side in MEPCOM [Military 
Entrance Processing Command], I would have to look at a 
particular specific. I can't--I know that we had a case--we had 
a situation at one point where we had problems with the 
calibration of the hearing--the hearing test at some of the 
MEPs and it wasn't translating. That, I know, has been taken 
care of. We also had an issue in Colorado with lordosis, which 
I don't want to get into explanation of what that condition is.
    Mr. Coffman. Sure.
    General Brilakis. But we got that fixed through working 
through the process.
    We have 5,300 Marines involved in recruiting.
    Mr. Coffman. Fifty-three hundred?
    General Brilakis. Yes, sir.
    Mr. Coffman. And that is support personnel, staff?
    General Brilakis. Joint headquarters, production 
recruiters, nonproduction recruiters. That is it.
    Mr. Coffman. Okay.
    General Grosso. We have 2,300 people in our recruiting 
infrastructure. We are working on better screening tools. And I 
will have to take for the record the MEPs question.
    [The information referred to can be found in the Appendix 
on page 97.]
    Mr. Coffman. Okay.
    Ms. Speier.
    Ms. Speier. This is all really helpful. It is interesting 
that the Marines have 5,300 in recruiting and yet 182,000 in 
the Marine Corps; Air Force has half as many recruiting and has 
317,000.
    Do you want to address that, General?
    General Brilakis. Yes, ma'am. This year we will have 38,000 
enlisted non-prior-service accessions. But as I mentioned, we 
are a young force. Two-thirds of the force is in the operating 
forces. Every 4 years we turn over 75 percent of each cohort. I 
had the second-largest recruiting mission of all the Armed 
Forces.
    Ms. Speier. Because there is such a high turnover, is that 
what you are saying?
    General Brilakis. That is correct, yes, ma'am.
    Ms. Speier. And so we need to look at why.
    General Brilakis. Because we are an inexpensive and we are 
a young force. The model that was created, because I can only 
put so many first-term Marines into the career force, because 
there isn't that much of a career force.
    Ms. Speier. Got it. Got it. Okay.
    I am going to ask you to provide this to us for the record. 
So I would like for you to each provide us with how you spend 
your advertising budget, TV, sponsor of events, and the like.
    [The information referred to can be found in the Appendix 
beginning on page 98.]
    Ms. Speier. General Grosso, in particular, I was at a 
Michigan game not so long ago in which they had Air Force 
planes flying overhead and then they had them skydive into the 
stadium, which was exciting to watch, but I couldn't help but 
sit there thinking: How much is this costing us? So if all of 
you would provide that, that would be helpful.
    In terms of the Navy, Admiral Burke, the anticipation of 
having 355 ships would be a huge increase in personnel. What 
are you doing in contemplating that? What tradeoffs will the 
Navy be prepared to make to meet that financial commitment?
    Admiral Burke. Well, in terms of the manpower increases, 
the exact number will depend on what the makeup of that new 
force construct exactly would look like. So the answer is it 
depends. You know, that is obviously still being discussed.
    Ms. Speier. Well, if we add these ships, have you done an 
analysis of how many additional sailors and civilians you will 
need?
    Admiral Burke. We have done bounding analyses. Again, the 
discussions are anywhere between 12 to 14 carrier strike groups 
and then the composition of those. And then we think that that 
force also needs to be a mix of manned and unmanned vessels as 
well, so that could also reduce the manpower increase. But we 
are very much looking at that. And then the timeframe and the 
speed at which we build those vessels. So the answer is it 
depends. But anywhere from 20,000 to 40,000 additional sailors, 
depending on how we bound it.
    The infrastructure that we have in place in terms of our 
Recruit Training Command is sufficient given shipbuilding 
timelines to put enough sailors through there. We would have to 
ramp up additional drill, recruit division commanders, and 
perhaps additional training capacity, but probably not 
additional infrastructure is where we are with that right now, 
ma'am.
    Ms. Speier. Okay. We spent some time asking the question 
where your retention areas were, and many of you referenced 
cyber and intelligence in particular. I wonder to what extent 
those functions should be filled by civilians and the focus be 
placed there, with the expectation that you are putting someone 
in the military in those positions, they are so attractive to 
companies outside, that you are going to have them moving 
through there very quickly and constantly in a retraining mode. 
That is just an aside.
    It appears that the number one issue here is retention--or 
attrition, depending how you look at it, I guess, in some 
respects. If you have a high attrition rate, then the costs of 
retraining are significant. So you want to reduce the attrition 
rate, is where we want to go, correct?
    So I would be interested in knowing what other--and I am 
running out of time, so maybe for the record as well--what 
other programs, policies we should contemplate to address the 
attrition rate and find ways to reduce it.
    [The information referred to can be found in the Appendix 
beginning on page 98.]
    Ms. Speier. With that, I yield back, Mr. Chairman.
    Mr. Coffman. Just one very quick point. I think we are 
still locked into the promotion structure of, I think, the 
height of Iraq and Afghanistan. And is the promotion system too 
fast? When the ranking member talked about retention and the 
cost of training, the fact that it seems to be very competitive 
in a lot of career fields to stay in, are we forcing good 
people out that should otherwise stay in, by virtue of our 
promotion system? Would anybody like to answer that?
    Admiral Burke. Sir, I would like to take that one, the 
question. I think we do--we are very much taking a look at--you 
know, from a sustainability standpoint, we have a very broad 
personnel pyramid, very large at the base, that still very much 
assumes we can bring people in in large volume and 
inexpensively.
    So a lot of our Sailor 2025 programs are aimed at narrowing 
the base of the pyramid, make it a little taller, so longer 
careers, and perhaps allowing more opportunities to repurpose 
the career, let people change their specialties throughout a 
career.
    We can relatively easily do that on the enlisted side with 
the authorities that we have, and we are doing that in Sailor 
2025. A little harder to do that on the officer side without 
some additional policy relaxations, and we are working with 
your teams to explore those opportunities.
    Mr. Coffman. Anybody else? Okay. Anybody else? Yes.
    General McConville. Mr. Chairman, the way our model works 
with the pyramid in law is only 10 percent of enlisted soldiers 
really can make it to 20 years and 30 percent of officers serve 
a full career. That is kind of how the model works. And this 
has been especially exacerbated during the drawdown when we 
went from 570,000 soldiers on the way to 460,000. So almost 
100,000 soldiers either attrited or were asked to leave that 
may have been fully qualified from the Army over the last 5 
years.
    Mr. Coffman. Anybody else? Yes.
    General Grosso. On the enlisted side, we allow people to 
stay that haven't been promoted. So I would share that with 
you, and that is the first commander.
    On the officer side, we for longest time to major, we have 
had a 95 percent promotion rate. So I wouldn't make the 
argument that we are losing talent because of the promotion 
system.
    General Brilakis. Sir, we promote to vacancy. We have a lot 
of platoon leaders, we have a lot of squad leaders, and a lot 
of Marines. They move their way up, and I have fewer spots for 
folks as we go. So the up-or-out system, the way we do 
business, makes it very competitive, allows us to find the 
talent. And we have processes in place where individuals who 
have devoted a good chunk of their life to service are allowed 
to be continued to 20 years, staff sergeants and majors.
    Mr. Coffman. Okay.
    Ms. Speier, anything else?
    I wish to thank the witnesses for their enlightening 
testimony this afternoon.
    There being no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 4:47 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 17, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 17, 2017

=======================================================================

      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 17, 2017

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MR. COFFMAN

    General McConville. Applicants are not allowed to access into the 
Army unless they are deemed physically qualified by the Military 
Entrance Processing Command Chief Medical Officer. In addition to 
confirming that applicants are medically qualified to succeed in 
training, the Army instituted the Occupational Physical Assessment Test 
(OPAT) in 2017 to predict a recruit's aptitude for performing physical 
tasks in the Army's most physically demanding occupations. Applicants 
are contracted for specialties only when their performance on the OPAT 
indicates they will succeed.   [See page 23.]
    General McConville. The Army has 11,932 Soldiers serving as 
recruiters in the Regular Army, Army Reserve and Army National Guard.   
[See page 23.]
    Admiral Burke. Navy currently has a recruiting cadre of 6,096 
Sailors, composed of 4,855 production recruiters and 1,241 support and 
command staff.   [See page 23.]
    General Brilakis. The Marine Corps has historically maintained a 
low rate of unintended attrition outside of our total force model 
compared to the other services. Approximately 7% of enlisted Marines do 
not complete boot camp and 13% do not complete their initial contract 
for a variety of reasons to include medical, misconduct, and 
performance. Currently, the average annual non EAS attrition rate is 
4.5% of the total enlisted force.   [See page 24.]
    General Grosso.

          Active Duty First Term Enlistment Category Involuntary Discharges--from FY 2012 thru FY 2017
----------------------------------------------------------------------------------------------------------------
        FY                 # First Term Inventory          # First Term Involuntary Discharges          %
----------------------------------------------------------------------------------------------------------------
2012               121,671                                1,410                                 1.2
----------------------------------------------------------------------------------------------------------------
2013               123,528                                1,250                                 1.0
----------------------------------------------------------------------------------------------------------------
2014               120,595                                1,333                                 1.1
----------------------------------------------------------------------------------------------------------------
2015               121,960                                1,060                                 0.9
----------------------------------------------------------------------------------------------------------------
2016               130,108                                  976                                 0.8
----------------------------------------------------------------------------------------------------------------
2017               138,349                                1,015                                 0.7
----------------------------------------------------------------------------------------------------------------

[See page 24.]

    General Grosso. Medical Screening--Air Force recruiters do a good 
job of asking questions during the interview process to try and 
identify any previous medical concerns, unfortunately potential 
trainees have the ability not to disclose medical conditions and/or may 
not know they have a medical condition. Our MEPS Medical staff does a 
good job during the physical to identify disqualifying conditions, 
etc., but again, potential trainees do not always disclose ailments. 
Then when the trainee arrives in the training environment, some of 
those ailments then become more apparent due to additional physical 
activity, added stresses, etc. or trainees then start identifying these 
``hidden'' issues as a way to drop out because of the stress of Basic 
Military Training. We also have some trainees that make it beyond their 
180-day mark and then start bringing attention to known or unknown 
medical conditions. We also ensure trainees meet the ``additional'' Air 
Force Specialty Code (AFSC) requirements some career fields have to 
enter that specialty, flight physical, etc.
    Occupational Screening--In reference to some of our higher 
attrition career fields (e.g. Explosive Ordinance Disposal, Pararescue, 
SERE, and TACP), we provide fact sheets which are required to be 
understood and signed by applicants in conjunction with being 
contracted for those positions. Our Battlefield Airmen/Combat Support 
(BA/CS) career fields utilize contracted developers who conduct the 
physical agility and stamina qualification tests, as well as provide 
ongoing development until the applicant leaves for Basic Military 
Training. We utilize the Air Force Enlisted Classification Directory 
and additional manual Air Force Specialty Code qualification checks for 
all of our career fields. We also have initiated the AF-WIN pilot which 
is a career self-exploration tool that gives Air Force recruits an 
opportunity to identify ``good fit'' enlisted Air Force careers based 
on a series of simple job interest questions.   [See page 24.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER
    General McConville. 1. How much was spent on marketing and 
advertising overall in FY16: $189.8M
    2. How much was spent on specific subset areas of marketing:
    --Sports marketing: $10.37M
    --Non-sports sponsorship in FY16: $3.15M (Education, Diversity)
    --Advertising (media (broadcast and on-line)): $71,734,488
    3. How much was spent on fly-overs in FY16: $0.00
[See page 25.]
    General McConville. The Army is very interested in reducing 
attrition, both for readiness and resourcing reasons. This is an area 
that we monitor closely. It is essential to screen recruits, before 
they ever sign a contract or ship to training. Current screening tools 
are very useful, but we still lose 12% of recruits while they are in 
initial entry training. The Army is testing the redesigned Tailored 
Adaptive Personality Assessment System (TAPAS), a non-cognitive 
assessment which helps predict the assimilation to Army life, job 
satisfaction, and risk of attrition to include misconduct attrition. 
Additionally in 2017, the Army implemented the Occupational Physical 
Assessment Test (OPAT) for all new recruits. This assessment is used to 
determine if a recruit will be able to meet the physical requirements 
of a particular MOS. Screening for physical aptitude in the most 
demanding combat arms occupations will improve MOS training and reduce 
injury related attrition. Initial results already show a decrease in 
attrition over the first six months of implementation. The Army would 
like to see continued Congressional support of TAPAS and OPAT to reduce 
attrition now and in the future.   [See page 26.]
    Admiral Burke. Navy spent $71.4 million for Marketing and 
Advertising in fiscal year (FY) 2016. Navy spent $5.1 million on direct 
sports marketing and advertising in FY2016. Additionally, we purchased 
cable and broadcast media packages that run ads on various television 
networks. In FY2016, 28 percent of the ads were run on sports networks 
at a cost of $9.1 million. Approximately $500 thousand was spent to 
execute the Department of Defense-regulated maximum of 40 flyovers in 
FY2016 (nearly all in support of sporting events). In addition to 
sponsorship of diversity and Science, Technology, Engineering, and 
Mathematics (STEM) organizations, Navy continues to sponsor the ESPN 
Winter and Summer X-Games, the Southern Heritage Classic, and the Army-
Navy football game.   [See page 25.]
    Admiral Burke. Navy has entered a ``War for Talent'' and we are 
working to pull every available force management lever to maximize 
retention and reduce attrition of highly skilled Sailors. Forthcoming 
initiatives include:
    <bullet>  expanding high-year tenure length-of-service gates for 
Sailors in pay grades E-3 through E-6, which will allow them to remain 
in the Navy longer and will provide them with additional advancement 
opportunities.
    <bullet>  initiating several pilot programs at Recruit Training 
Command to improve the physical and mental fitness of Sailors during 
initial recruit training. On January 1, 2018, we will institute a 
minimum physical fitness standard that recruits must meet before 
beginning training.
    <bullet>  working with Military Entrance Processing Command (MEPS) 
to reduce attrition at Recruit Training Command, by streamlining pre-
service identification of disqualifying medical conditions that 
typically arise during initial recruit training.
    <bullet>  revising our Physical Readiness Program separation policy 
by eliminating the requirement to process Sailors for separation due to 
Physical Fitness Assessment (PFA) failures. Under the revised policy, 
enlisted Sailors will be retained for the duration of their enlistment 
contract, and officers will be retained through completion of their 
minimum service requirement.
    Following PFA failure, Sailors will enroll in a Fitness Enhancement 
Program that will offer focused care and the opportunity to work 
towards compliance with fitness standards and eligibility for continued 
career progression. Each year, Navy recruits, processes, and trains, 
nearly 40,000 Sailors, and sends that same number home. Even if budgets 
were unlimited, this turnover is inefficient, in terms of cost and 
time. We must continue to find better ways to retain, and repurpose, 
the talent in which we have already invested, and avoid incentivizing 
Sailors to walk out the door.   [See page 26.]
    General Brilakis. Per your request, the Marine Corps' recruitment 
advertising program requirement exceeds $100 million annually.
    Total Marine Corps Recruiting Command Marketing and Advertising 
spend in FY16 was $79.7 million. Total sports advertising and marketing 
spend: $15,419,357 Total sports advertising and marketing percentage of 
spend: 19.35%
    Advertising alone (Traditional media: scale media/TV, digital, 
mobile, et al) spend for FY16: $12,558,725 Advertising percentage: 
15.76%
    The Advertising program's key investments and measurable objectives 
include:
    1. Achieving DOD's JAMRS-validated, advertising industry baseline 
levels of awareness. Specifically, exposing 50% of our prospect 
audience, three times quarterly, to our advertisements via scale TV/
media investments. This accounts for approximately 50% of the Marine 
Corps' advertising program spent. Beyond setting the conditions for 
long-term mission effectiveness, scale TV/media spent has proven to 
directly impact the amount of qualified leads and contracts the program 
delivers and influences annually.
    2. Delivering more than 20% of the command's net new contracts via 
lead generation efforts. The three primary drivers of our lead 
generation efforts are the web (which includes Marines.com), paid 
search, and direct mail.
    3. Delivering on-time essential recruiter support. Examples include 
(but are not limited to) contracting for lead generating enhanced area 
canvassing events that put our recruiters face-to-face with the 
prospect market in communities across the nation. adequate collateral 
sales material to facilitate informed discussions with prospects and 
influencers, as well as promotional and incentive items intended to 
drive contracting and advocacy for the Marine Corps.
    Marketing spent (engagement activities with prospect youth that are 
face-to-face) for FY16: $2,860,632
    Marketing percentage: 3.59%
    National-level spend: $821,169
    National percentage: 1.03%
    Region/District-level spend: $2,039,463
    Region/District percentage: 2.56%
[See page 25.]
    General Brilakis. The Marine Corps has historically maintained a 
low rate of unintended attrition outside of our total force model 
compared to the other services. Approximately 7% of enlisted Marines do 
not complete boot camp and 13% do not complete their initial contract 
for a variety of reasons to include medical, misconduct, and 
performance. Currently, the average annual non EAS attrition rate is 
4.5% of the total enlisted force.   [See page 26.]
    General Grosso. The AF Recruiting Service Commander issued guidance 
severely restricting AF recruiting units from executing contracts with 
professional sporting teams/organizations that might present the 
appearance of impropriety or misuse of government funds. As a result, 
AFRS did not execute any marketing or advertising with professional 
sporting organizations (NFL, MLB, NBA, MLS, etc.) in FY16.
    In FY16 HQ AFRS did execute five contracts that could be considered 
sports related. Those contracts totaled $2,371,700.
    a. Formula Drift Racing--$201,200
    b. International Series of Champions snowmobile racing--$178,000
    c. Steve Scheuring Speed Sports snowmobile racing--$127,500
    d. For Inspiration and Recognition of Science and Technology 
Robotics competition--$275,000
    e. Richard Petty Motorsports--$1,590,000
    In FY16, AFRS spent $68.4M on marketing and advertising for 
recruiting purposes broken down as follows:
    Category of Expense Amount Description
    Recruiter Support Systems $15.2M Web sites, data mgmt, lead 
collection, 1-800#, promo items
    Advertising $18.7M On-line ads, Direct Mail, Social Media, Theater 
ads, print ads
    Television $17.9M Paid TV advertising
    Public Engagement Events $16.6M Partnerships*, mobile tours, 
professional convention space
    Total $68.4M
    During fiscal year 2016, Air Force units volunteered to provide 
aerial support at 87 collegiate- and professional-level sporting 
events. Each flyover is incidental to a previously programed training 
mission and are flown in conjunction with training objectives, 
specifically time-over-target and low-level visual flight requirements. 
Because of this, the flyover program is run at no additional cost to 
the government in accordance with 10 U.S.C. Sec. 2012 (d). More 
information regarding flyovers and other community relations activities 
can be found in a September 2016 GAO report (GAO-16-794), titled 
``Community Relations DOD's Approach for Using Resources Reflects Sound 
Management Principles'' which can be found at http://www.gao.gov/
assets/680/679912.pdf.   [See page 25.]
    General Grosso. Basic Military Training attrition since 2012 
averages approximately 6% per FY. So far this FY we have brought in 
22,589 Active Duty Airmen and lost 1,107 through attrition (4.5%). The 
consistent top reasons for attrition from FY12-16 include medical 
discharge, mental health, fraudulent enlistment, drugs/drug fraud, and 
marginal performance. All top five categories remained consistent in 
terms of percentages of actual trainee discharges from FY 16-17, we are 
seeing a real drop in total numbers that takes into account that we 
still have a full third of FY17 left.
    The Air Force changed the accession process earlier this year. We 
adjusted how we ask about pre-service drug use, focusing more on the 
type of drug and tendency for future use vice a hard number. Air Force 
Recruiting Service undertook a major program to educate their 
recruiters on the importance of having potential recruits be open and 
honest, and working waivers at the pre-accession level. Basic Military 
Training introduced a pilot program in FY17 in 2 of their training 
squadrons (through a grant with University of the Incarnate Word) to 
work with trainees and Physical Training Noncommissioned Officers to 
focus on preventative injury activities to lower attrition related to 
stress fractures and other exercise-related issues. The 559th Medical 
Group (associated with Basic Military Training) recently undertook a 
major study in FY17 (looking back at least 10 years) to look into why 
trainees were attriting as the result of mental health issues. Those 
efforts identified two key areas: (1) non-disclosure of prior to 
service mental health history; and (2) trainees using reports of 
suicidal ideations as a means to self-eliminate from Basic Military 
Training. As a result, recruiter training was modified to address 
prior-to-service mental health history and ongoing manpower studies to 
provide additional preventative support to trainees to reduce 
instrumental suicidality as a means of self-elimination.   [See page 
26.]

                                  <all>
</pre></body></html>
